GR-70-98-023
U.S. DEPARTMENT OF JUSTICE
 

AUDIT REPORT
 
Grants to Encourage Arrest Policies
to the Governor's Justice Commision of Rhode Island
Grant Number 97-WE-VX-0105
GR-70-98-023
 
September 25, 1998
 
EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grant
  number 97-WE-VX-0105 awarded by the U.S. Department of Justice, Office of Justice Programs
  (OJP) to the Governors Justice Commission of Rhode Island (Commission). The
  Commission received a grant of $605,288 to encourage a coordinated and integrated approach
  to respond to domestic violence as a serious violation of criminal law. The grant project
  period was March 1, 1997 to 
August 31, 1998. Project extensions through May 31, 1999 were granted by OJP. As of
  August 7, 1998, the grantee had expended about $443,000 of the grant funds.
Our audit concentrated on, but was not limited to, the period March 1, 1997 through
  August 21, 1998. We tested the accuracy and reliability of the grantee's accounting
  system, reviewed the general ledger, and determined if costs charged to the grant were
  allowable, allocable, and reasonable. For purposes of this review, we used: the Office of
  Management and Budget (OMB) Circular A-110, Grants and Agreements with Institutions of
  Higher Education and Other Nonprofit Institutions; OMB Circular
A-122, Cost Principles for Nonprofit Organizations; OMB Circular A-133, Audits
  of States, Local Governments, and Non-Profit Organizations; and the OJP Financial
  Guide.
We found that cost claimed under the grant were generally allowable, allocable,
  reasonable, and in accordance with grant requirements, except as noted. The Commission was
  implementing activities to meet grant objectives. However, we found that the Commission
  violated the following grant conditions.
The Commission did not obtain prior approval for changes in budget categories and, as a
      result, we questioned $54,670 in costs charged to the grant. 

The Commission charged for training provided prior to the grant start date, and, as a
      result, we questioned $350. 

The Commission did not account for an estimated $9,000 in program income.

The Commission did not fully comply with grant property management requirements. 




The Commission submitted semiannual progress reports; however, the reports did not cover
      the correct time period and two reports were not submitted timely.

The Commission did not submit two financial status reports.

These items are discussed in the Findings and Recommendations section of the report.
  Our Scope and Methodology appear in Appendix II.
#####